No.

In The Supreme Court of
the United States of America

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
DR. ERIN RUBIN,
Respondent, pro se.

PROOF OF SERVICE
I, Michael Ramon Ochoa, do swear and declare that on or before February 18,
2021, as required by U. S. Supreme Court Rule 29, I served the enclosed petition for
writ of certiorari and appendix on counsel for the parties to the above proceeding, and
on every other person required to be served, by depositing an envelope containing the
above documents properly addressed to each of them and with first-class or priority
postage pre-paid, at the following addresses:
Judge Kendra Coleman
Oklahoma County Courthouse
321 Park Avenue
Oklahoma City, OK 73102
Mr. John D. Hadden
Clerk of the Oklahoma Supreme Court
2100 N. Lincoln Blvd.
Oklahoma City, OK 73105
Clerk of the Court Scott S. Harris
Attn: Redmond K. Barnes
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543-0001
1 of 6

Dr. Erin Rubin
% Senior Vice Chancellor and Chief Legal Officer Geovette E. Washington
University of Pittsburgh
Office of General Counsel
1710 Cathedral of Learning
Pittsburgh, PA 15260
Dr. Erin Rubin
% Vice Chancellor and General Counsel Monica J. Allen
Washington University in St. Louis
Medical School Campus
660 South Euclid
Campus Box 8037
St. Louis, MO 63110
Dr. Erin Rubin
% University of Oklahoma General Counsel Anil V. Gollahalli
The University of Oklahoma Health Sciences Center
1100 N. Lindsay, Oklahoma City, OK 73104
Dr. Erin Rubin
% University Counsel and Secretary of the Board of Regents Jeremy Hueth
University of Colorado, Denver
1800 Grant St., Suite 800
Campus Box 35 UCA
Denver, CO 80203
Dr. Erin Rubin
1575 Fillmore St.
Denver, CO 80206
Emeritus Judge Larry Shaw
Oklahoma County Courthouse
321 Park Avenue
Oklahoma City, OK 73102
Oklahoma County Court Clerk Rick Warren
320 Robert S. Kerr Avenue, Room 409
Oklahoma City, OK 73102

Courtesy Copies
Ca. Atty General Xavier Becerra
% Acting U.S. Secretary of Health and Human Service Norris Cochran
Hubert H. Humphrey Building
200 Independence Avenue, S.W.
Washington, D.C. 20201
President Joseph R. Biden, Jr.
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500
U.S. Atty. Western Dist. of Pa. Scott W. Brady
U.S. Post Office & Courthouse
700 Grant Street, Suite 4000
Pittsburgh, PA 15219
Professor Bruce W. Brower
105E Newcomb Hall
1229 Broadway
New Orleans, LA 70118
Professor Ronna Burger
105F Newcomb Hall
1229 Broadway
New Orleans, LA 70118
Acting Deputy Attorney General John Carlin
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Special Agent in Charge Michael A. Christman
F.B.I. Pittsburgh
3311 East Carson St.
Pittsburgh, PA 15203
Director Francis S. Collins
National Institutes of Health
9000 Rockville Pike
Bethesda, MD 20892

Judge Robert J. Colville
Civil/Commerce and Complex Litigation Center
815 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Scott G. Dunlop, Pa. I.D. #41638
Grant H. Hackley, Pa. I.D. #206141
Marshall Dennehey Warner Coleman & Goggin
501 Grant Street, Suite 700
Pittsburgh, PA 15219
Emeritus Professor Graeme Forbes
CU Boulder Philosophy
Hellems 169 UCB 232
Boulder, CO 80309-0232
Special Agent in Charge Melissa R. Godbold
F.B.I. Oklahoma City
3301 West Memorial Road
Oklahoma City, OK 73134-7098
Justin M. Gottwald, Pa.I.D. #92847
Katelin J. Montgomery Pa. I.D. #322698
Rebecca Good McBride Pa. I.D. #90623
Steven L. Ettinger Pa. I.D. #316266
Dickie, McCamey & Chilcote, P.C. Pa. firm #067
Two PPG Place, Suite 400
Pittsburgh, PA 15222
Senator Charles Grassley
135 Hart Senate Office Building
Washington, D.C. 20510-1501
Acting Inspector General Christi A. Grimm
U.S. Department of Health and Human Services
330 Independence Avenue, S.W.
Washington, D.C. 20201
Founding Director David Hickton
University of Pittsburgh Institute for Cyber Law, Policy and Security
4200 Fifth Avenue
2516 Cathedral of Learning
Pittsburgh, PA 15260

4 of 6

Oklahoma Attorney General Mike Hunter
313 NE 21st Street
Oklahoma City, OK 73105
Emeritus Inspector General Daniel R. Levinson
U.S. Department of Health and Human Services
330 Independence Avenue, S.W.
Washington, D.C. 20201
Acting Assistant Attorney General Nicholas L. McQuaid
U.S. Department of Justice, Criminal Division
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
David S. Pollock, Esquire, PA I.D. #19902
Brian C. Vertz, Esquire, PA I.D. #064822
Benjamin E. Orsatti, PA I.D. #93092
Pollock Begg Komar Glasser & Vertz, LLC, PA Firm #419
525 William Penn Place, Suite 3501
Pittsburgh, PA 15219
Oklahoma County District Attorney David W. Prater
320 Robert S. Kerr Avenue, Room 505
Oklahoma City, OK 73102
Pa. Atty. General Josh Shapiro
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Judge Christine A. Ward
Civil/Commerce and Complex Litigation Center
820 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Colorado Attorney General Phil Weiser
Colorado Department of Law
Ralph L. Carr Judicial Building
1300 Broadway, 10th Floor
Denver, CO 80203
Emeritus Judge R. Stanton Wettick, jr.
Civil/Commerce and Complex Litigation Center
820 City-County Building
414 Grant Street
Pittsburgh, PA 15219
5 of 6

Acting U.S. Attorney General Monty Wilkinson
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Governor Tom Wolf
225 Main Capitol Building
Harrisburg, PA 17120
Director Christopher A. Wray
F.B.I. Headquarters
935 Pennsylvania Avenue, NW
Washington, D.C. 20535-0001
Dr. Tong Wu
% President Michael A. Fitts
Tulane University
6823 St. Charles Avenue
New Orleans, LA 70118
Allegheny County District Attorney
Stephen A. Zappala, jr.
Room 303 Courthouse
436 Grant Street
Pittsburgh, PA 15219
I declare under penalty of perjury that the foregoing is true and correct.
Terras Irradientl

Michael Ra on Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
February 18, 2021

